T
-1 • 61

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

E-Mail Address:

ega Briefs
Est. 1923

eontact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com
No. 19-710
CONNECTICUT FINE WINE AND SPIRITS, LLC,
dba Total Wine & More
Petitioner,
v.
MICHELLE H. SEAGULL, COMMISSIONER, CONNECTICUT
DEPARTMENT OF CONSUMER PROTECTION, et al.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 3rd day of January, 2020, send out
from Omaha, NE 7 package(s) containing 3 copies of the BRIEF OF SOUTHERN GLAZER'S WINE AND SPIRITS, LLC
AS AMICUS CURIAE IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have
been served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the
following:
SEE ATTACHED
To be filed for:
CHRISTOPHER V. POPOV
VINSON & ELKINS LLP
1001 Fannin Street
Suite 2500
Houston, TX 77002
(713) 758-2636

JEREMY C. MARWELL
Counsel of Record
JOSHUA S. JOHNSON
MORGAN A. KELLEY
VINSON & ELKINS LLP
2200 Pennsylvania Ave.,
NW, Suite 500 West
Washington, DC 20037
(202) 639-6500
jmarwell@velaw.com

Subscribed and sworn to before me this 3rd day of January, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

Notary Public

Affiant

39297

Carter G. Phillips
Sidley Austin LLP
1501 K Street, N.W.
Washington, DC 20005
(202) 736-8270
cphillips@sidley.com
Counsel for Petitioner Connecticut Fine Wine and Spirits, LLC, dba Total Wine & More
Robert Joseph Deichert
State of Connecticut, Office of the Attorney General
165 Capitol Avenue
Special Litigation Department, Suite 5000
Hartford, CT 06106
(860) 808-5020
Robert.Deichert@ct.gov
Counsel for Respondents John Suchy, Director, Division of Liquor Control, and
Commissioner Michelle H. Seagull, Department of Consumer Protection
Robert Mark Langer
Wiggin and Dana LLP
20 Church Street
Hartford, CT 06103
(860) 297-3724
rlanger@wiggin.com
Counsel for Intervenor-Respondent Wine & Spirits Wholesalers of Connecticut, Inc.
David S. Hardy
Carmody Torrance Sandak & Hennessey LLP
195 Church Street
New Haven, CT 06103
(203) 777-5501
dhardy@cannodylaw.com
Counsel for Intervenor-Respondent Connecticut Beer Wholesalers Association, Inc.
Michael J. Spagnola
Siegel, O'Connor, O'Donnell & Beck, P.C.
150 Trumbull Street
Hartford, CT 06103
(860) 727-8900
mspagnola@siegeloconnor.com
Counsel for Intervenor-Respondent Connecticut Restaurant Association

Patrick A. Klingman
Klingman Law, LLC
280 Trumbull Street
21st Floor
Hartford, CT 06103
(860) 256-6120
pak@klingmanlaw.com
Counsel for Intervenor-Respondent Connecticut Package Stores Association, Inc.
John F. Droney, Jr.
Hinckley Allen & Snyder, LLP
20 Church Street
Hartford, CT 06103
(860) 725-6200
jdroney@hinckleyallen.com
Counsel for Intervenor-Respondent Brescome Barton, Inc.

